TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




              The Internal Revenue Service’s Compliance
                 With the Federal Information Security
              Management Act (Non-Intelligence – National
                Security Systems) for Fiscal Year 2007



                                November 13, 2007

                         Reference Number: 2008-20-026

The Treasury Inspector General for Tax Administration (TIGTA) has designated this
audit report as Sensitive But Unclassified pursuant to Chapter III, Section 23 of the
     Treasury Security Manual (TD P 71-15) entitled, “Sensitive But Unclassified
      Information.” Because this document has been designated Sensitive But
  Unclassified, it may be made available only to those officials that have a need to
know the information contained within this report in the performance of their official
      duties. This report must be safeguarded and protected from unauthorized
  disclosure; therefore, all requests for disclosure of this report must be referred to
the Disclosure Branch within the Treasury Inspector General for Tax Administration
                                Office of Chief Counsel.




                               Sensitive But Unclassified


Phone Number | 202-622-6500
Email Address | inquiries@tigta.treas.gov
Web Site      | http://www.tigta.gov
